              U.S. Department of Energy
              Office of Inspector General
              Office of Audit Services




Audit Report
The Department’s Pollution Prevention
Program




DOE/IG-0680                                 March 2005
REPORT ON THE DEPARTMENT'S POLLUTION PREVENTION
PROGRAM


TABLE OF
CONTENTS



              Pollution Prevention


              Details of Finding............................................................. 1

              Recommendations .......................................................... 5

              Comments ....................................................................... 6


              Appendices

              1. Objective, Scope, and Methodology .......................... 8

              2. Pollution Prevention Proposals ................................ 10

              3. Prior Reports............................................................ 11

              4. Management Comments.......................................... 12
POLLUTION PREVENTION

Pollution Prevention   The Department of Energy (Department) has not
Activities             maintained a completely effective pollution prevention
                       program. In some cases, sites did not systematically
                       research cost-effective opportunities to reduce waste
                       generation or to increase recycling/reuse of materials.
                       Additionally, sites did not always implement identified
                       cost-effective measures to reduce pollution.

                                        Opportunity Assessments

                       Although required by Department Order 450.1,
                       Environmental Protection Program, two of the four sites
                       visited during our review were not conducting operational
                       assessments to identify opportunities to reduce waste
                       generation or to increase recycling/reuse of materials.
                       Current policy requires sites to continually conduct
                       operational assessments to identify opportunities for source
                       reduction, material segregation, recycle/reuse, and to
                       implement those opportunities determined to be feasible
                       and cost-effective. We noted, however, that at the Hanford
                       Site, the Richland Operations Office (Richland) had not
                       ensured that their major contractors reviewed and assessed
                       their operations for opportunities to prevent pollution in
                       Fiscal Years (FY) 2003 and 2004. We also noted that,
                       although required by contract language, the Office of River
                       Protection contractors had never performed such
                       opportunity assessments. Prior to FY 2002, Richland
                       contractors performed yearly assessments of their activities.
                       One of the major Richland contractors had, however,
                       recently completed a value engineering study to identify
                       more efficient mixed low-level waste disposal methods, its
                       first review of a waste stream since FY 2001.

                       Richland and the Office of River Protection's decreased
                       emphasis on identifying new opportunities to prevent
                       pollution may have contributed to a decrease in cost
                       savings from pollution prevention activities at the Hanford
                       Site. Specifically, these sites reported average annual cost
                       savings/avoidance of over $70 million from these activities
                       in FYs 2000 and 2001. However, in FYs 2002 and 2003,
                       the sites reported an average of $32 million in cost
                       savings/avoidance, or an average decrease of nearly $40
                       million per year. Hanford Site officials indicated that the
                       reduction of efforts and lack of support, as well as the fact
                       that past efforts had already implemented the most

________________________________________________________________
Page 1                                            Details of Finding
                      promising opportunities, were contributing to the decrease
                      in annual cost savings/avoidance.

                                        Project Implementation

                      Although the Los Alamos National Laboratory (Los
                      Alamos) and the Sandia National Laboratories (Sandia) had
                      successfully implemented certain pollution prevention
                      proposals, they had not acted on a number of proposals that
                      they determined to be feasible and cost-effective on a
                      life-cycle basis. Based on a review of 20 judgmentally
                      selected proposals, we found the sites had not implemented
                      9 proposals that represented potential life-cycle cost
                      savings of over $5.5 million. Additional information is
                      presented in Appendix 2 regarding the proposals we
                      reviewed. Some of the more significant proposals that the
                      sites did not take advantage of include:

                         •   Los Alamos had not implemented an opportunity,
                             which had been proposed multiple times since
                             FY 2001, to use lead-free bullets at its major
                             outdoor firing range. While lead-free bullets cost
                             more than lead alternatives, they are
                             environmentally friendly and do not require a firing
                             range remediation every 25 years. As a result, the
                             purchase of such bullets could save Los Alamos
                             $97,100 each year, about $2.4 million over the
                             life-cycle of the project. According to Los Alamos
                             officials, they had not implemented the proposal
                             because of funding limitations and concerns about
                             the availability of all necessary calibers of lead-free
                             bullets. However, we noted that other Federal
                             training facilities such as the Federal Law
                             Enforcement Training Center are successfully using
                             lead-free ammunition.

                         •   During 2003, Los Alamos also identified but did not
                             take advantage of an opportunity to potentially
                             reduce water consumption and chemical usage
                             through the testing and design of silica seed crystal
                             filters at a cost of $60,000. The filters would reduce
                             the formation of silica scale in Los Alamos cooling
                             towers enabling them to operate at higher levels of
                             concentration. By increasing the level of
                             concentration in the cooling towers, Los Alamos

________________________________________________________________
Page 2                                            Details of Finding
                             estimated that the filters would save over $501,000
                             per year in costs attributed to the use and disposal of
                             nearly 41 million gallons of water and treatment
                             chemicals required to control corrosion and silica
                             scale formation. Los Alamos officials said that the
                             project was one of several similar projects that had
                             not been implemented due to insufficient funding.

                         •   In April and May of 2003, Sandia identified but did
                             not implement five feasible opportunities to
                             minimize waste. These initiatives were estimated to
                             generate life-cycle cost savings of about $216,000
                             and required an initial capital investment of less
                             than $54,000. These opportunities to minimize
                             waste included: (1) purchasing a wood chipper for
                             mulching green waste for reuse on-site that would
                             reduce life-cycle disposal costs by more than
                             $50,000 over a ten-year period; and (2) installing
                             paint shop equipment to reduce the life-cycle costs
                             of solvent disposal by approximately $26,000.
                             According to Sandia officials, these opportunities
                             were not implemented due to limited funding or a
                             lack of facility interest.


Managerial Focus      Pollution prevention managers at all of the sites we visited
                      did not believe that they had adequate program support to
                      maintain an effective pollution prevention program.
                      Additionally, the Department did not hold managers
                      accountable for identifying and implementing cost-
                      effective opportunities.

                                           Program Support

                      Program offices and the National Nuclear Security
                      Administration (NNSA) had not fully supported pollution
                      prevention activities since they were made responsible for
                      directly funding the program in FY 2003. In August 2002,
                      the Office of Environment, Safety and Health
                      (Environment, Safety and Health) became responsible for
                      policy development and individual program elements were
                      required to fund pollution prevention activities. Prior to
                      that date, the Office of Environmental Management
                      (Environmental Management) had lead responsibility for
                      pollution prevention and provided centralized funding to
                      other programs to implement promising projects. After this

________________________________________________________________
Page 3                                            Details of Finding
                      realignment, all the sites we visited told us that support,
                      including funding, direction and/or perceived importance of
                      the program was not adequate to continue activities at the
                      most successful levels. For example, Hanford Site
                      pollution prevention officials told us that since FY 2003,
                      the site had cut its staff from approximately seven staff
                      members to one member, and had limited efforts, for the
                      most part, to monitoring ongoing recycling activities and
                      reporting waste generation data. Other than at NNSA sites,
                      we were unable to determine the level of funding provided
                      for prevention activities because most program offices did
                      not budget or track funding.

                      Problems with program direction and emphasis also existed
                      in the organization formerly responsible for its overall
                      administration and funding – Environmental Management.
                      We noted Environmental Management did not assign
                      responsibility for coordinating the program's pollution
                      prevention activities across its sites and contractors until
                      about two years after responsibility for the Department-
                      wide program was transferred to Environment, Safety and
                      Health. Recently, Environmental Management assigned
                      responsibility for program coordination and emphasized to
                      site managers' their responsibility to conduct pollution
                      prevention activities consistent with Departmental
                      requirements.

                      Although site pollution prevention managers told us that
                      they did not have adequate funding for their activities, we
                      noted that Los Alamos had implemented an innovative
                      funding strategy to supplement their program by charging a
                      fee to waste generators, based on the quantity and type of
                      waste generated. Los Alamos invested the waste generator
                      fee in prevention activities. In FY 2004, this generator fee
                      provided approximately $600,000 which funded eleven
                      pollution prevention projects.

                                            Accountability

                      The organizations included in our review had not
                      established performance measures for their pollution
                      prevention programs. Furthermore, three of the four sites
                      included in our review did not have performance measures




________________________________________________________________
Page 4                                            Details of Finding
                     for pollution prevention activities (Los Alamos was the
                     only site with pollution prevention performance measures
                     at the time of our review). As a result, managers had not
                     been held accountable for implementing an effective
                     program.


Opportunities for    The Department is missing opportunities to reduce costs
Savings              and minimize waste generation across the complex. Based
                     on our review of selected proposals, we identified potential
                     life-cycle cost savings of over $5.5 million from 9
                     proposals that the sites determined to be feasible and cost-
                     effective but were not implemented. Additionally, cost
                     savings at one Environmental Management site have been
                     reduced an average of nearly $40 million dollars each year
                     since FY 2002. Without renewed emphasis on the
                     pollution prevention program, the Department may
                     continue to miss opportunities to cost-effectively reduce
                     waste streams.


RECOMMENDATIONS      We recommend that the Administrator, National Nuclear
                     Security Administration and the Assistant Secretary for
                     Environmental Management, in conjunction with the
                     Assistant Secretary for Environment, Safety and Health:

                            1. Ensure that sites implement the pollution
                               prevention provisions of DOE Order 450.1, by:

                                    (a) Conducting operational assessments of
                                        site operations to identify opportunities
                                        for pollution prevention projects and
                                        implementing those deemed cost-
                                        effective using life-cycle assessment
                                        concepts and practices; and,

                                    (b) Employing innovative strategies, such
                                        as waste generator's fees, to fund cost-
                                        effective pollution prevention programs.

                            2. Develop and implement performance measures
                               for pollution prevention activities that
                               reemphasize the program and hold managers
                               accountable for implementation.




________________________________________________________________
Page 5                                          Recommendations
MANAGEMENT           In separate responses from the responsible Departmental
REACTION             organizations, management generally concurred with the
                     report's findings and recommendations. Management's
                     comments are included in Appendix 4 and summarized
                     below.

                     The National Nuclear Security Administration (NNSA)
                     generally agreed with our report and recommendations.
                     NNSA acknowledged that our conclusions were similar to
                     those reached during its FY 2004 site reviews and agreed to
                     include our findings in a memorandum it plans to send to
                     their site managers. NNSA sites also commented that
                     several of the examples used in the report have now been
                     identified for future implementation.

                     The Office of Environmental Management (EM) agreed to
                     implement the recommendations by providing additional
                     guidance to their field managers on the need to conduct
                     opportunity assessments, and developing and implementing
                     performance measures for pollution prevention. EM stated
                     that part of its mission is to find innovative solutions to
                     clean up past contamination problems and, where possible,
                     use waste minimizing approaches to cut the cleanup risk,
                     schedule, and cost. In addition, they included an
                     attachment from the Office of River Protection (ORP)
                     emphasizing it has requirements in place directing its
                     contractor to perform operational assessments.

                     The Office of Environment, Safety and Health (EH) agreed
                     to work, in conjunction with NNSA and EM officials, to
                     implement the report's recommendations. However, EH
                     raised the concern that our draft report did not recognize
                     the Department's numerous pollution prevention successes.
                     EH also noted that its office is not in a position to ensure
                     that actions are undertaken at Departmental sites or to hold
                     site managers accountable. However, they agreed to
                     support NNSA and EM by monitoring site performance in
                     implementing the pollution prevention provisions of DOE
                     Order 450.1 and providing information that will assist in
                     carrying out the report's recommendations.




________________________________________________________________
Page 6                                                 Comments
AUDITOR COMMENTS     Management's comments are generally responsive to our
                     recommendations. Based on these comments, we have
                     made several changes to the body of this report where
                     necessary. With regard to ORP's comments related to
                     operational assessments, we agree that such requirements
                     had been established. We noted, however, that contractors
                     had not actually performed the required assessments and
                     ORP had not taken action to compel their completion.




________________________________________________________________
Page 7                                                 Comments
Appendix 1______________________________________

OBJECTIVE             To determine whether the Department and its contractors
                      are maintaining an effective pollution prevention program.


SCOPE                 The audit was performed between January 2004 and
                      January 2005. We conducted work at Headquarters,
                      Washington, D.C., and Germantown, MD; NNSA Service
                      Center and Sandia National Laboratories (Sandia),
                      Albuquerque, NM; Los Alamos National Laboratory (Los
                      Alamos), Los Alamos, NM; and the Richland Operations
                      Office and Office of River Protection at the Hanford Site,
                      Richland, WA.


METHODOLOGY           To accomplish our audit objective, we:

                           •   Reviewed laws, regulations, contractual
                               requirements, as well as, policies and procedures
                               relevant to Departmental pollution prevention and
                               waste minimization activities;

                           •   Reviewed site pollution prevention program plans
                               and other site specific guidance where available;

                           •   Held discussions with Headquarters program
                               officials regarding pollution prevention and waste
                               minimization at the Department;

                           •   Held discussions with officials from the NNSA
                               Service Center, Richland Operations Office,
                               Office of River Protection, and contractor officials
                               from Sandia, Los Alamos and the Hanford Site
                               regarding pollution prevention and waste
                               minimization at the individual sites;

                           •   Selected a judgmental sample of 20 recent
                               pollution prevention opportunities documented at
                               the Sandia and Los Alamos National Laboratories
                               and conducted a review to determine whether
                               cost-effective feasible opportunities were being
                               implemented;

                           •   Reviewed Pollution Prevention Opportunity
                               Assessments at other Departmental sites not
                               visited during our audit;


________________________________________________________________
Page 8                             Objective, Scope, and Methodology
Appendix 1 (continued)____________________________

                           •   Reviewed pollution prevention accomplishment
                               reports for the years 2000-2003 at the Hanford
                               Site to determine whether recent reductions in the
                               pollution prevention program have reduced
                               reported accomplishments; and,

                           •   Participated in the Department's first Pollution
                               Prevention Televideo Conference.

                      The audit was performed in accordance with generally
                      accepted Government auditing standards for performance
                      audits and included tests of internal controls and
                      compliance with laws and regulations to the extent
                      necessary to satisfy the audit objective. We did not identify
                      any performance measures required by the Government
                      Performance and Results Act of 1993 applicable to the
                      Department’s pollution prevention program. Because our
                      review was limited, it would not necessarily disclose all
                      internal control deficiencies that may have existed at the
                      time of our audit. We did not rely on computer processed
                      data to accomplish our audit objective.

                      An exit conference was held with officials from the Offices
                      of Environmental Management and Environment, Safety
                      and Health on March 8, 2005. NNSA waived the exit
                      conference.




________________________________________________________________
Page 9                             Objective, Scope, and Methodology
            Appendix 2______________________________________


                                    POLLUTION PREVENTION PROPOSALS


                                                                                                          Initial     Life-Cycle
                                                                                                          Cost of     Cost
Location      Opportunity       Description                               Waste Reduced                   Project     Savings

1. Sandia     Refillable        Replace current aerosol cans for a        Eliminates the solid and            $450         $6,329
              Aerosol           number of cleaners, paints and            potentially hazardous
              Containers        adhesives with refillable spray           waste stream generated
                                bottles.                                  by aerosol cans.

2. Sandia     Wood Chipper      Purchase of a new wood chipper to         Approximately 660 cubic           $15,600       $50,129
                                fully accommodate the green waste         yards of green waste.
                                production on site.

3. Sandia     Solvent           1. Install an on-site distillation unit   Reduce annual disposal             $4,000       $26,211
              Distillation      that would recycle all solvents used      costs for spent solvent by
              Unit/ Paint Gun   in the Paint Shop. 2. Install a paint     approximately 75%.
              Washer            gun washer which provides closed-
                                loop cleaning and is more efficient
                                than cleaning by hand.

4. Sandia     Parts Wash        Install a closed-loop, aqueous            Decreases the quantity of         $33,095       $78,351
              Rack              spray system to replace the current       waste disposal by 85%.
                                method of cleaning metal parts by
                                hand in preparation for painting.

5. Sandia     Paint Shop        Reduce the types and colors of            Approximately 85% of the              $0       $55,000*
              Specification     paint called for in the specifications    paint waste streams could
              Modifications     from 75 to 25, and eliminate the          be eliminated.
                                requirement that contractors leave
                                extra paint on site.

6. Los        Lead-Free         Replace traditional lead bullets with     Eliminates 1000 KG of             $35,000   $2,427,500*
Alamos        Ammunition        environmentally friendly lead-free        lead waste per year.
                                bullets at the outdoor firing range.

7. Los        Cooling Tower     Install a "seed crystal" filter to        Eliminates nearly 41              $60,000   $2,506,130*
Alamos        Sand Filter       remove silica from cooling tower          million gallons of water
                                systems to protect the heat transfer      wasted and associated
                                surfaces and allow operation at           chemicals per year.
                                increased cycles of concentration.

8. Los        Leaking           Replace leaking faucets with user         Eliminates 1.1 million liters      $2,500     $295,955*
Alamos        Laboratory        friendly faucets which permit water       of clean water per year
              Faucets           to be completely shut off after use.      that is being treated as
                                                                          radioactive liquid waste.

9. Los        Equipment         Replace current shower heads with         Reduces discharge to               $1,500      $84,265*
Alamos        Room Shower       low flow shower heads.                    Radioactive Liquid Waste
              Heads                                                       Treatment Facility by
                                                                          341,262 liters per year.


                                                                                            TOTALS:        $152,145    $5,529,870
* OIG calculations based on information provided by site officials.


            ________________________________________________________________
            Page 10                                Pollution Prevention Proposals
Appendix 3______________________________________

                                 PRIOR REPORTS


  •   Department of Energy's Waste Minimization Program (DOE/IG-0298,
      September 6, 1991). The audit found that while waste minimization progress was
      being made, significant opportunities to eliminate waste still existed. Waste
      minimization opportunities were not being implemented because of limited use of
      incentives, minimal program guidance, and funding uncertainties. The report also
      noted that in generating excessive amounts of waste, the Department will continue
      to be exposed to acknowledged environmentally dangerous conditions that will
      require costly remedial actions.

  •   The U.S. Department of Energy's Value Engineering Program (HQ-B-98-01,
      July 17, 1998). The audit found that the Department had not fully developed and
      implemented an effective value engineering program. Some value engineering
      savings were not always supported or not truly the result of the formal value
      engineering methodology and some field activities had not consistently computed
      and reported value engineering savings. The Department's success with value
      engineering was limited by inadequate policy and procedures and lack of annual
      plans, goals, and objectives. As a result, the intended value engineering goals of
      reducing costs, increasing productivity, streamlining operations, and improving
      quality may not have been achieved to the fullest extent possible.




________________________________________________________________
Page 11                                              Prior Reports
Appendix 4




________________________________________________________________
Page 12                                     Management Comments
Appendix 4 (continued)




________________________________________________________________
Page 13                                     Management Comments
Appendix 4 (continued)




________________________________________________________________
Page 14                                     Management Comments
Appendix 4 (continued)




________________________________________________________________
Page 15                                     Management Comments
Appendix 4 (continued)




________________________________________________________________
Page 16                                     Management Comments
                                                             IG Report No. DOE/IG-0680

                       CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of
its products. We wish to make our reports as responsive as possible to our customers'
requirements, and, therefore, ask that you consider sharing your thoughts with us. On the
back of this form, you may suggest improvements to enhance the effectiveness of future
reports. Please include answers to the following questions if they are applicable to you:

1. What additional background information about the selection, scheduling, scope, or
   procedures of the inspection would have been helpful to the reader in understanding
   this report?

2. What additional information related to findings and recommendations could have
   been included in the report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report's
   overall message more clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the
   issues discussed in this report which would have been helpful?

5. Please include your name and telephone number so that we may contact you should
   we have any questions about your comments.


Name                                          Date

Telephone                                     Organization


When you have completed this form, you may telefax it to the Office of Inspector
General at (202) 586-0948, or you may mail it to:

                           Office of Inspector General (IG-1)
                                 Department of Energy
                                Washington, DC 20585

                              ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact Wilma Slaughter at (202) 586-1924.
The Office of Inspector General wants to make the distribution of its reports as customer friendly
                                               and cost
effective as possible. Therefore, this report will be available electronically through the Internet at
                                       the following address:

               U.S. Department of Energy Office of Inspector General Home Page
                                    http://www.ig.doe.gov

  Your comments would be appreciated and can be provided on the Customer Response Form
